              REVIEW OF THE 

    ADMINISTRATIVE PROCEDURES OF THE 

UNITED STATES ARCTIC RESEARCH COMMISSION 

     REPORT NUMBER A060192/S/W/S08002 

               October 10, 2007

GSA/OIG/A060192/S/W/S08002 





Non-Compliance with Arctic Research and Policy Act
Based on our review of the final leave and earnings statements, we determined that one
Commission member received compensation for service that exceeded the allowable 90 days per
year. According to the salary amount received for the year 2005 and the daily rate of pay to the
Commission member, the member was compensated for 96 days of service, which conflicts with
the Arctic Research and Policy Act. The Arctic Research and Policy Act, as amended, states:

       “A member of the Commission not presently employed for compensation shall be
       compensated at a rate equal to the daily equivalent of the rate for GS-18 of the
       General Schedule under section 5332 of title5, United States Code, for each day
       the member is engaged in the actual performance of his duties as a member of the
       Commission, not to exceed 90 days of service each year.”

Non-Compliance with Federal Travel Regulations
Our review of the Commission’s travel files revealed one traveler claimed and was reimbursed for
two nights lodging expenses for a location not included on the official travel authorization nor
amended to add as an official travel site.

Recommendation
We recommend that the Executive Director, U.S. Arctic Research Commission seek
procurement assistance from the General Services Administration to ensure that its
contract administrative tasks are in compliance with applicable Federal Acquisition
Regulations. We also recommend that the Executive Director strengthen its
administrative controls to adhere to its governing Arctic Research and Policy Act.

Management’s Comments
The Executive Director, United States Arctic Research Commission did not provide comments to
this report.




                                                3

GSA/OIG/A060192/S/W/S08002




Objectives, Scope and Methodology
The objectives of this review were to: (1) review and evaluate the Arctic Research Commission’s
compliance with Federal regulations and administrative policies and procedures, and (2)
determine the effectiveness of those policies and procedures. To accomplish these objectives, we
identified and evaluated the controls relating to the administrative practices followed by the
Commission. The administrative activities reviewed included: property, travel, procurement, payroll,
timekeeping, and personnel operations during fiscal year 2005. During that time, the Commission
paid $148,741 for the commercial purchase of: supplies and materials, printing and reproduction, and
other services (budget activities 24, 25, and 26 respectively). To evaluate procurement procedures we
judgmentally selected six vendors, which were awarded contracts above the $2,500 micro-purchase
threshold. Collectively these procurement actions account for 68 percent of the Commission’s total
spending for the above mentioned budget activities.

The review was performed at the Commission's office located at 4350 N. Fairfax Drive, Suite 510,
Arlington, Virginia. The review was conducted in accordance with generally accepted government
auditing standards and included such audit tests and procedures as considered necessary to evaluate
the Commission's system of internal controls.

Results of Review
Based on our review, we found the U.S. Arctic Commissions delivery of administrative services
was flawed by procurement deficiencies that included several instances of non-compliance with
Federal Acquisition Regulations, another instance of non-compliance with the Public Law
establishing its program, the Arctic Research and Policy Act, and an instance of non-compliance
with the Federal Travel Regulations. With the exception of these findings, nothing else came to
our attention to indicate that the Commission operated other than in accordance with applicable
policies and procedures.

Non-Compliance with Federal Acquisition Regulations
We reviewed a total of six procurement actions, none of which were accompanied by the required
contract administrative documents such as a detailed task order, statement of work, or description
of the services being contracted. Furthermore, all six procurements exceeded the $2,500 micro-
purchase threshold and thus should have been awarded through competitive actions. None of the
files provided this evidence. Specifically, four procurement actions included orders that were
blank or deficient as to what was being ordered, timeframe for delivery and rate charged. The
documents on file provided only the name of the vendor and the amount obligated for an
unspecified service. There was essentially no documentation supporting the two remaining
procurement actions. One contained only invoices that indicated monthly personnel services at
various amounts, without any detail as to the number of hours or hourly rate used as a basis for
the final charge. The other contained only an invoice letter from the contractor that specified only
the amount owed. It was later determined, that while the contractor submitted the invoice for
complete payment, the services were not complete. Again, no itemization or detail on what was
ordered, timeframe for the work performed, or rate charged. Without complete procurement files
or in these instances, sufficient ordering documents, an important control feature is compromised:
the vendors’ invoices can not be reconciled to the ordering document to verify what was ordered
or to ensure price reasonableness for the services rendered.

                                                 2

GSA/OIG/A060192/S/W/S08002 





                   REVIEW OF THE ADMINISTRATIVE PROCEDURES 

                             OF THE UNITED STATES 

                         ARCTIC RESEARCH COMMISSION 

                        REPORT NUMBER A060192/S/W/S08002 


                                 REPORT DISTRIBUTION



                                                               Copies

Executive Director, U.S. Arctic Research Commission              1

Assistant Inspector General for Auditing (JA, JAO,JAS)           3




                                              5

